Supreme Court, U.S.
FILED

JAN 2 1 2020
OFFICE OF THE CLERK

No.

Supreme Court of tije flHntteb States*
DAVID THORPE,
Petitioner,
DEXTER DUMAS, an individual, GEORGE
JENKINS, an individual, LAUREN BOONE, an
individual, JEFFREY S. CONNELLY, an
individual, FANI WILLIS, an individual, and
URAL GLANVILLE, an individual,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE lPh CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

David Thorpe, Pro Se
4902 Fielding Way
Stone Mountain, GA 30088
willcora@msn.com
404-428-8276

January 14, 2020

i

Questions Presented
A - Willis
Burns v. Reed. 500 U.S 478 (1991) Supreme
Court states "prosecutors have only qualified
immunity for investigative acts. Buddy v.
Fitzsimmons, 509 U.S. 259 (1993) when a prosecutor
is alleged to have fabricated evidence, the prosecutor
is engaged in an investigative task not a prosecutorial
task. Kalina v. Fletcher, 522 U.S. 118 (1997) filling
out and submitting the certificate or affidavit. This is
investigative in nature and therefore, is protected by
only qualified immunity. Imbler v. Pactmen 424 U.S.
409 (1976) the Supreme Court articulated distinction
between absolute immunity for prosecutorial acts and
qualified
immunity
for
investigative
or
administrative acts ...
Question 1. Whether a supervising Deputy
District Attorney who assigned three (4) District
Attorneys over a two-year period to a case that lacked
probable cause (per discovery) to prosecute was
entitled to absolute immunity under 42 U.S.C § 1983?
Question 2. Whether the lower courts biaslv
abused
their
discretion
by
intentionally
mischaracterizing the duties of a supervising Deputy
District Attorney?
Question 3. Whether the 11th Circuit Court of
Appeals Court with disturbing ease exploited their
discretion by failing to mention the true context of the
Petitioners statements. Said statement being “knew
of exculpatory evidence and failed to act” by

r-

continuing a prosecution for 26 months. Willis
"knew" was not supported by the Constitution or the
Bar Associations Rules of Conduct and Ethics or
acknowledge Willis was an administer/supervisor
never the prosecuting attorney.
Question 4. Whether the lower courts abused their
discretion by biasly revisiting a judgment of another
court and applied it to this unique case?

B (1)- Respondents, Boone, Connelly,
Dumas, Jenkins
German AFA and Trust Co. v. Rigsby (7th Cir.
2015.) Seventh circuit relied on the rule that “a
defendant will waive objection to the absence of
personal jurisdiction by giving the plaintiff a
"reasonable expectation" that she "will defend the suit
on the merits.'’ 2015 WL 5579751. at *2. Lewkowicz u.
Williams, 630 F. 3d, defendant nevertheless waived
its personal jurisdiction defense by failing to press it
and. instead, substantially litigating on the merits.
Gerber v. Riordan 649 F. 3d 514, 518 (6!h Cir. 2011).
defendants participated in litigating on the merits
before renewing their motion, which included their
counsel making a general appearance, the defendants
waived their personal jurisdiction defense. Hamilton
v. Atlas 197 F. 3d, 58, 60 (2d Cir. 1999). A "delay in
challenging personal jurisdiction by motion to dismiss
may result in waiver, even where ... the defense was
asserted in a timely answer." Cont’l Bank, N.A. v.
Meyer. 10 F.3cl 1293, 1297 (7th Cir. 1993)
Nonetheless, some courts have held that a defendant

n

can waive the defense of lack of personal jurisdiction
by its later conduct in the litigation.
Question 1. Whether the rulings by the 7,h. 6th, and
2mi Circuits should serve as an established guideline
for Respondents who have received a reasonably
calculated notification to defend a suit and make
general appearances and litigate,
Nonetheless
attempt to under mind said notice by hiding behind a
rule that is secondary to the concept it is predicated
on (which is notification and an opportunity to
respond)?
Question 2. Whether the lower courts abused their
discretion by purposely not taking into consideration
that the Respondent’s motions (District court
documents 9.13,16. and 22) substantially litigated
every defense from expiration of the statute of
limitations, to sovereignty, and immunities?
Question 3. Whether the lower courts abused their
discretion by not considering the Petitioners amended
complaints first page statement "Plaintiff seeks to
amend the original complaint to assist and clarify
statements and claims" as a reasonable expectation
that Respondents would defend the lawsuit?

B (2)- Respondents, Boone, Connelly,
Dumas, Jenkins
Petitioner states "there is a conflict between
Federal Rule 4 and Federal Rule 5.”
Federal Rule 5 (a) Service: when required.

m

(1)
In General. Unless these rules
provide otherwise, each of the following
papers must be served on every party:
(B) a pleading filed after the original
complaint, unless the court
orders otherwise under Rule 5(c)
because there are numerous defendants.
Federal Rule 5 (b) Service: How Made.
(U Serving an Attorney. If a party is
represented bv an attorney, service
under this rule must be made on the
attorney unless the court orders
service on the party.
Question 1. Whether service of the amended
complaint to the attorney on record per Federal Rule
o (b) (1) satisfied the constitution's 14th amendment
requirements for due process pertaining to notice?
Question 2. Whether the lower courts biasly
exploited their discretion by not acknowledging or
expressing any opinion on Federal Rule 5 despite all
Respondents obtaining counsel, making general
appearances. and litigating. Which prompted
Petitioner to amend his complaint, (timely) Given rise
to the denial of all Respondents motions to dismiss by
the judge who ordered the amended complaint “the
new ’ superseding the original complaint?
Question 3. Whether the Northern District abused
discretion by electing not to consider this rule nor
acknowledge proper notice was indeed given to the
Respondents through and by their council?

IV

Question 4. Whether the Appellate Courts abused
its discretion by further ignoring the Petitioners
assertions of service to the attorney on record was
indeed adequate notice for this circumstance?

C - Respondent Glanville
Rankin v. Howard, 633 F. 2d 844 (1980). Zeller v.
Rankin, 101 S. Ct. 2020. 451 U.S. 939, 681 L. Ed 2d
326. When a judge knows that he lacks jurisdiction or
acts in the face of clearly valid statutes expressly
depriving him of jurisdiction, judicial immunity is
lost. Stump v. Sparkman, id., 435 U.S. 349. Some
Defendants urge that any act "of a judicial nature”
entitles the Judge to absolute judicial immunity. But
in a jurisdictional vacuum, (that is, absence of all
jurisdiction) the second prong necessary to absolute
judicial immunity is missing.
Gonzalez u.
Commission on Judicial Performance (1983) 33
Cal.3d 359. 188 CaL.Rptr. 880: 657 P.2d 372. "Bad
faith is equivalent to actual malice and encompasses
the intentional commission of acts which the judge
knew or reasonably should have known were beyond
his lawful power.
Question 1. Whether a judge denying a citizen a
hearing (not to be misinterpreted as simply
denying a motion) constitute a normal judicial
function?
Question 2. Whether a judge is constitutionally
bound to hear a motion or in the alternative reset or
reschedule the hearing?

Question
3.
Whether
the lower courts
mischaracterize the Petitioners statements and
revisited case law that were not in line with the
complaint?
Question 4. Whether the lower courts addressed
the specific statements of the violation that
Respondent Glanville refused to hear the filed motion
request (not to be confused with being denied) based
solely on looking at the Petitioner?
Question 5. Whether the Northern District Court
abused their discretion by electing not to base their
decision on a court transcript of the stated (not
alleged) violation per the Petitioners exhibit?
Question 6. Whether the 11th Circuit Court of
Appeals courts blatantly exploited their discretion by
ruling that Glanville had judicial immunity because
denying a motion is a normal judicial function.
Despite the fact that Petitioner asserted and provided
a transcript that Glanville refused to hear any
argument for said motion which is not a normal
judicial function?

D - All Respondents
Scheuer v. Rhodes (1974). The U.S. Supreme
Court stated that “when a state officer acts under a
state law in a manner violative of the Federal
Constitution, he comes into conflict with the superior
authority of the Constitution, and he is in the case
stripped of his official or representative character and
is subjected in his person to be the consequences of his
individual conduct. The State has no power to import
vi

to him any immunity from responsibility to the
supreme authority of the United States."
Question 1. Whether the lower courts abused their
discretion by not considering the Petitioners content
and certainly not applying anything less stringent?
Question 2. Whether the lower courts provided
this citizen the victim of six government officials any
real consideration at all because there are no written
01 lecorded documents to support such an upright
effort?
“
Question 3. Whether the lower courts only
considered the cases that benefited the Respondents
(government officials) in spite of the facts there were
several other cases including Supreme Court cases in
Petitioners multiple pleading?
Question 4. Whether the Federal Courts have the
authority to determine and provide a written
acknowledgement of an attorney or judges
misconduct when he/she violates a citizens
Constitutional Rights?

E - All U.S. Citizens
Question 1. Whether citizens are entitled to have
the government "judges" (local, state, and federal)
observe or offer fair procedures, whether or not those
procedures have been provided for in the law on the
basis of which it is acting?
Question 2. Whether citizens should expect judges
(local, state, and federal) to exhibit behavior that

Vll

ensures the greatest possible public confidence, free
from subjective or prejudicial views and doctrines?
Question 3. Whether citizens can expect judges
(local, state, and federal) to be held at a higher
standard and conduct themselves with the dignity
accorded their esteemed position free from any
preferential treatments?
Question 4. Whether citizens should expect
prosecutors (all levels) to acknowledge all the
relevant facts of a case including those favorable to an
accused and present those facts in a fair, ethical, and
clear manner free from any blind quest of a stellar
conviction rate?
Question 5. Whether a citizen should expect law
enforcement (any level) to protect and serve free from
subjective profiling and any form of red fining?
Question 6. Whether an innocent citizen violated
by the United States government (intentionally) via
its officials has any recourse or guarantee that the
wrongdoer will be punished, and the culprit subjected
to at least restitution?
Question 7. Whether any government official’s
oath or pledge of service is indeed constitutionally
binding?

vm

Parties to the Proceedings Below
All parties appear in the caption of the case on
the cover page.

Corporate Disclosure Statement
There are no corporations involved in this
proceeding.

1

Table of Contents
Questions Presented

.1

A - Willis

.1

B (1)- Respondents, Boone, Connelly, Dumas,
Jenkins
n
B (2)- Respondents, Boone, Connelly, Dumas,
Jenkins........................... .......................................
m
C — Respondent Glanville.................................

v

D — All Respondents..........................................

vi

E-AllU.S. Citizens..........................................

vn

Parties to the Proceedings Below........................

1

Corporate Disclosure Statement.........................

1

Table of Contents................................................. .

2

Table of Authorities...............................................

4

Opinions Below.......................................................

6

Jurisdiction.......... ...................................................

6

Constitutional & Statutory Provision Involved

7

Statement of the Case..........................................

7

Factual background:............ ................. ............

7

Procedural background.....................................

10

Reasons to Grant the Petition.............................

16

Conclusion................................................................

20

Appendix.................................................. .................

la

Appendix A...............................................................

2a

Appendix B...............................................................

12a

Appendix C...............................................................

33a

2

Appendix D

35a

Appendix E

37a

3

Table of Authorities
Cases
Gerber v. Riordan 649 F. 3d..........................
u
Blockowicz v. Williams, 630 F. 3d.................
n
Buddy v. Fitzsimmons. 509 U.S. 259 (1993)
i
Burns v. Reed, 500 U.S 478 (1991)................
i
Cont’l Bank, N.A. v. Meyer. 10 F.3d 1293, 1297 (7lh
Cir. 1993)....
n
Federal Rule 5
12
German AFA and Trust Co. v. Rigsby 7th Cir. 923,
2015
n
Gonzalez v. Commission on ■Judicial Performance
(1983) 33 Cal.3d 359. 188 Cal.Rptr. 880: 657 P.2d
372......................................................................
v
Hamilton v. Atlas 197F. 3d, 58 2nd Circuit
vn
Hamilton v. Atlas 197F. 3d, 58 2nd Circuit.
in
Hamilton v. Atlas 197 F. 3d, 58, 60 (2,] Cir. 1999).... ii
Imbler u. Pactmen 424 U.S. 409 (1976)...
Kalina v. Fletcher. 522 U.S. 118 (1997)..
l
Lewkowicz v. Williams, 630 F. 3d...........
in
Rankin v. Howard, 633 F. 2d 844 (1980)
v
Scheuer v. Rhodes (1974)...........................
Vl
Stump v. Sparkman, id., 435 U.S. 349...
V
Zeller v. Rankin, 101 S. Ct. 2020. 451 U.S. 939, 681 L.
Ed 2d 326.
V

Statutes
28 U. S. C. § 1254(1)

7

4

Other Authorities
8th Amendment,...........
14th Amendment,.........
42 U.S.C § 1983.............
42 U.S.C.§ 1983.............
4th Amendment..............
8th Amendment.............
U.S.C. 42 § 1983...........

11
11
n
711
9
17

Rules
Federal Rule 4...............
Federal Rule 5 (a)........
Federal Rule 5 (b)____
Federal Rule 5 (b) (1)...

v, 10, 12

14th Amendment........ .

9

Eight Amendment............
Fourteenth Amendment .
Fourth Amendment.........

7
7
7

iv, 12
IV

iv

5

Opinions Below
•

The opinion of the United States court of
appeals for the Eleventh Circuit appears at
Appendix A to the petition and is unpublished.
• The opinion of the United States district court
appears at Appendix B to the petition and is
unpublished.
• The opinion of the United States court of
appeals for the Eleventh Circuit Rehearing
appears at Appendix C to the petition and is
unpublished.
• The First Amended Complaint of the United
States District Court Northern District of
Georgia appears at Appendix D to the petition
and is unpublished.
• The Motion for Entry of Default of the United
States District Court Northern District of
Georgia appears at Appendix E to the petition
and is unpublished.

Jurisdiction
The date on which the United States Court of
Appeals for the Eleventh Circuit decided my case was
September 17, 2019. A timely petition for rehearing
was denied by the United States Court of Appeals on
the following date October 28, 2019. and a copy of the
order denying rehearing appears at Appendix C. The
jurisdiction of this Court is invoked under 28 U. S. C.
§ 1254(1).
6

-♦

Constitutional & Statutory Provision
Involved
Petitioner states all six Respondents violated
rights promised him under the United States
Constitution. Respondents Willis. Jenkins. Connelly.
Dumas. Glanville, and Boone violated the Fourth
Amendment which provides "The right of the people
to be secure in their person... against unreasonable
search and seizures shall not be violated" and the
Fourteenth Amendment prohibits "the states from
depriving any person or life, liberty, or property
without due process of law." Respondent Glanville
violated the Eight Amendment which provides that
Excessive bail shall not be required ...
This action was brought pursuant to 42 U.S.C.§
1983 which states:
Every person who. under color of any statute,
ordinance, regulation, custom, or usage, of any
State... subjects, or causes to be subjected any
citizen of the United States or other person
within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law.

Statement of the Case
Factual background:
Petitioner an innocent citizen at all relevant times
was arrested for a capital felony that never occurred

in August of 2014. Respondent Dumas a detective
with the Atlanta Police Department obtained an
arrest warrant by providing a falsified application.
Subsequently, because of the armed robbery charge
the Petitioner was denied a hearing and bond 2 days
after Petitioners arrest. Petitioner was put into
population at the Fulton County Jail with the absence
of due process. Fulton County District Attorney's
offices successfully indicted the case 5 (business) days
after the Petitioners first appearance.
Said
indictment was achieved with a police narrative of the
alleged incident only.
No evidence, no witness!
Dumas also withheld the alleged victim's original
handwritten complaint from the state unbeknownst
at this time to anyone.
Petitioner was detained
■without true due process for approximately 20 days
and granted a release with the condition that
Petitioner wear an ankle monitor and pay for the
monitoring and report to weekly supervision at
Petitioners expense. During Petitioners work hours
and not go within 200 feet of Petitioners residential
property.
In September of 2014 Fulton County District
Attorney s Office and Respondent Willis a supervising
District Attorney with said office and Respondent
Jenkins, an Assistant District Attorney came into
possession of discovery (Jenkins requested) that
clearly detailed there was no probable cause to
continue with the prosecution, but continued to
deprive Petitioner of his freedom and property
willingly, wrongfully, and unconstitutionally. In
October of 2014, Petitioner and his father Willie
Thorpe mailed (certified) and contacted Respondent
Dumas’s supervisor at the Atlanta Police Department
Zone 3 providing the same evidence to prove the event
8

narrated in their record could not have occurred. To
no avail, nothing was done not even internally.
Subsequently and disgracefully over the next 586
days. Respondent Willis would assign two more
District Attorney's to this unwinnable case.
Respondents Boone and Connelly who continue to
deprive Petitioner of his freedom and property, but
please add happiness and sound mind.
During said period, even the judge Respondent
Glanville refused to hear not to be confused with
denied (events detailed on court transcript) a motion
to remove the Petitioners monitor which at that point
Petitioner has been shackled for approximately 9
months. Thus, making the Petitioners bail condition
unfair and excessive continuing to deprive Petitioner
of freedom and loss of property. (14th Amendment and
8th Amendment)
Petitioner paid three defense lawyers who literally
allowed this injustice to occur. All of which tried to
convince an innocent man to take a plea never truly
advocating or furthering the Petitioners defense.
Twenty-seven months from the beginning of this
unlawful ordeal and twenty-six months after the state
was aware of the truth a fourth Assistant District
Attorney assigned dropped all charges. Cowardly
despite having accused Petitioner in open court.
Petitioner was notified of the dismissal by email on
October 19, 2016.
After the ordeal Petitioner filed grievances with
the Georgia Bar Association on all District Attorney's
to no avail. The General Council was not going to act
on any misconduct claims without a judge’s order or
tianscript to the fact. It was the General Counsel that
virtually referred Petitioner to the courts.

9

In August of 2018. Petitioner filed a complaint
with the Norther District, in which was contested bv
all Respondents. It was after the Respondents
responded that the Petitioner filed Petitioners
amended complaint.
Petitioner states "Judge Tottenberg issued an
unopposed denial of every Defendant’s Motion for
Dismissal and ordered that the Plaintiffs Amended
Complaint dated September 19. 2018 superseded the
original complaint." Petitioner per Federal Rule 5 (b)
(1) mailed all pleadings after the original to the
Attorney s on record." Respondents Boone, Connelly,
and Jenkins did not respond timely to the original or
Amended Complaint. Prompting the Petitioner to file
for default judgment See Appendix E. against Boone,
Connelly and Jenkins, said request was ignored. Soon
after the Northern District entered an order for
dismissal for the Petitioners amended complaint. See
Appendix B, Petitioner soon after filed an appeal with
the 11th Circuit Court of Appeals.

Procedural background
1) Petitioner sued Respondents under 42 U.S.C. §
1983 stating violations of his 4th Amendment.
8 th
Amendment. 14th Amendment, false
imprisonment and malicious prosecution.
2) All the Respondents moved for dismissal. All
stated insufficient service but all litigated ....
Other defenses.
3) The Northern District granted all Respondents
their dismissals on November 8, 2018 citing
10

absolute immunity for Glanville and Willis.
Respondents Boone. Connelly. Dumas and
Jenkins for insufficient service.
4) (a) Petitioner requested what was viewed by
the court as a reconsideration on December 11
2018.
(b)
The
District
Court
denied
the
reconsideration.
5) Petitioner filed an appeal on January 8, 2019.
(a) September 17, 2019. lPh Circuit Court
of Appeals affirmed the District Courts
ruling virtually all
Petitioners
assertions
ignored
or
boldly
mischaracterized.
(b) Petitioner filed for rehearing asserting
that Petitioners briefs have been
misquoted as if there is no record of
Petitioners statement, (this is not
justice) (example) see Appendix A page
4. Firstly, the 11th Circuit Court of
Appeals states "Petitioner stated that he
served Boone. Connelly. Dumas and
Jenkins properly". Petitioner now states:
"Petitioner made no such statement."
Petitioners emphasis on proper service
dealt specifically with Federal Rule 5 (b)
(1) and its relationship to the service of
the
amended
complaint.
Which
Petitioner stated, "he mailed to the
attorneys on record which would suffice
Federal Rule 5 (b) (1).” Next, the 11th
Circuit Court of Appeals states
"Petitioner
argues
that
those
Respondents waived proper service
process by not addressing personal
11

jurisdiction in their first answer to
Petitioners
second
Amended
Complaint." Petitioner states "I said no
such thing! As a matter of factual record,
there is no second Amended Complaint
only a first. Furthermore, in legality
fairness and speaking factually Boone.
Connelly, and Jenkins could not have
raised any valid issues because their
filings were untimely.
(c) Allow Petitioner to continue with the
11th
Circuit
Court
of Appeals
subjectivity which undermines the true
spirit of justice. See Appendix A page 5.
the 11th Circuit Court of Appeals
attempts to address a disagreement of
whom the mail was sent to, just to say it
makes no difference but according to
Federal Rule 5 it does. Petitioner states
“I included proof of whom the mail was
sent to — per the 11th Circuit Court of
Appeals request (Docket # and receipts.)
So. after dismissing the importance of
whom the certified mail was sent to. The
11th Circuit Court of Appeals continues
to travel the beaten down path of the
Federal Rule 4. Why would this 11th
Circuit Court of Appeals fail to address
Federal Rule 5 and why or why not it
does or does not apply to my contention?
Granted my skills in this field are super
limited, but the rule itself is fairly
straight forward. Petitioner really does
not know if this is a gray area. Let's say
it is. then why would any justice seeking
12

official of the court grant the
(wrongdoing) Respondents the benefit of
the doubt in opposed to the upright
intentions of the (victim) Petitioner. In
regard to the issue of the service, the
11th Circuit Court of Appeals elected to
continue the Federal Rule 4 argument,
in fact see Appendix A page 5 of their
decision they listed five different cases
that all stated that certified mail does
not satisfy Federal Rule 4. Clearly.
Petitioner is not arguing Federal Rule 4,
it is clear that in this case Federal Rule
5 supersedes Federal Rule 4 just like the
first Amended Complaint supersedes
the original Complaint.
(d) Pertaining to the First Amended
Complaint the 11th Circuit Court of
Appeals made an error by stating "All
four of them (Respondents) argued that
service was insufficient”. Petitioner
states: "The truth is Connelly, Boone,
and Jenkins, could not have challenged
the insufficiency of service because they
failed to respond to the First Amended
Complaint timely.
(e) The 11th Circuit Court of Appeals
continuing to mischaracterize the
Petitioners statements boldly with a
disturbing confidence asserted case law
that, pertains to prosecuting attorneys,
(see Appendix A page 7 (a)) Petitioner
clearly stated "Respondent Willis was
the supervising attorney performing an
administrative duty. Respondent Willis
13

never actively prosecuted the Petitioner.
Respondent
Willis
herself
never
prepared for trial in the Petitioners case.
What Respondent Willis did was
assign attorneys to a case Respondent
knew lacked probable cause to continue
to prosecute. As a supervisor it is
Respondent Willis's duty to uphold the
bar rules and the constitutional
guidelines and ensure Respondent
Willis's subordinates follow the same. It
is
not
Respondent
Willis's
administrative nor supervisory duties to
allow any act to the contrary. Petitioner
states this would be the precise reason
why when the case could be reset no
more. It was Willis that advised the
fourth attorney to dismiss all charges
and expunge them in October of 2016.
Petitioner is asking why could this
action not have been taken in place of
depriving an innocent citizen his
freedom and property for over 580 days
and his sound mind for over two vears?
The state received the exculpatory
evidence in September of 2014.
(f) Continuing the 11* Circuit Court of
Appeals
yet
again
completely
mischaracterized
the
Petitioners
statements, The court states “Thorpe
complained the judge wrongfully denied
his request to modify the condition of his
bond” See Appendix A page 8 (b) they
statecl their opinions this way because
denying or granting motions is a quite
14

normal function for a judge and is
actually protected by the immunity, but
Petitioners
assertions
was
that
Respondent Glanville stated NO! To a
"hearing then "I am not modifying that
bond (based on simply looking at
Petitioner.) We all know and fully
understand that a judge is duty bound to
hear a properly filed or stated request.
No judge has the power to outright
refuse a hearing. It will never be a
judicial function to "deny'’ or "refuse" a
hearing
nonetheless
a
proper
rescheduling
would
suffice!!!
Furthermore. Thorpe attached the
actual transcript of the stated event as
an exhibit on his complaint.
(g) The lower courts also never addressed
the specific connotation of Petitioner
asking for relief as this court deems fair.
When pertaining to his reasonable
request for a validation and written
acknowledgement
of
all
proven
violations and misconducts. Only the
11th Circuit Court of Appeals opted to
ignore the content of the requests but
quickly addressed the term declaratory
relief in relation to said request.
(h) Lastly and certainly not the least, both
courts absolutely displayed an obvious
partiality toward the Respondents
positions and filings. Never giving the
Petitioners layman’s content any
authority or consideration opting to
ignore every request by the Petitioner at
15

the district level and molding and
shaping Petitioner statements during
the appeals process. Yes! Discretion was
abused. Any justice seeking person
would infer this upon viewing the filings
in this case.
(i) October 28. 2019 Petition for Rehearing
was denied.
Having lost an additional S3,100 on top of bond,
ankle monitor and reporting fees, cost of three
attorney s, loss of wages, and medical bills, (emotional
distress for my family and myself) All because a police
officer, four prosecutors, and a judge elected not to
honor their oath of offices and act outside the
constitutions guideline. I am currently submitting
my Writ to the highest court in the country and to
date no apologies (not even anonymous) and no
official has received so much as a slap on the
wrist. Petitioner states "it feels like the government
has told Petitioner well at least we did not kill you or
jail you for three decades. Consider yourself lucky....
boy.”

Reasons to Grant the Petition
In one word. ‘-FAIRNESS” but
unfortunately it will never be that simple. If one was
to truly embrace justice (natural or procedural),
he/she would discern where there is a crime (or
16

wrongdoing) there must be punishment! There is no
other way to balance the concept. No rationale that
places one citizen exempt over another - Not, age,
race, gender, faith (or lack of), sexual orientation,
political views, and certainly not employment should
be granted ANY free passes to violate any other
person’s rights intentionally and not be subject to
precisely the same punishment. To perpetuate any
such concepts or impunities in this country with its
history is actually too fitting (disturbingly). These
things are contrary to the promise of establishing a
more perfect union while establishing Justice!
What this case has become is unfair. Where
there is the absence of fairness thei'e can be no justice.
This case presents questions of whether the Northern
District and the 11th Circuit Court of Appeals
granted and affirmed dismissals for six government
officials unjustly? Petitioner sued under U.S.C. 42 §
1983 for violation of constitutional rights. Whether
said courts held two of the higher ranking officials
(Glanville and Willis) immune from the suit and not
liable for damages by abusing their discretion and
manipulating the officials applicability
for the
immunity and granting the remaining four (Boone.
Connelly, Dumas and Jenkins) dismissals citing
improper seiwice and referencing Rule 4 .While
ignoring key factors that clearly waved that defense. .
Such as all Respondents litigating beyond just
improper sendee. Both courts also elected not to
recognize the proper service procedure that was
fulfilled by the introduction of the amended complaint
under Federal Rule 5.
The Respondents violations that came to be.
not because of good faith or human error, but
17

disturbingly, willfully, and intentionally to the
detriment of an innocent citizen. Despite a welldocumented and exhibits filled complaint, followed up
with filings asserting pertinent case references both
courts would simply ignore and revisit judgments of
immunities not in line with the issues presented and
implement rulings based on a rule that was
superseded by another. Both courts again, simply
ignored the rule that should have taken precedent.
The 11th Circuit Court of Appeals essentially
mirrored the Northern Districts approach to
Petitioners filings. Petitioner was not afforded any
consideration for content. Petitioner states, both
courts saw 42 U.S.C. § 1983. a judge, and prosecutors
as Defendants and literally went straight into some
type of a shield mode. Both courts only asserted rules
and cases that on the surface benefited the
government officials. Neither court gave any of the
Petitioners valid assertions and case references the
opportunity to be fairly judged by a jury of peers based
on the facts. The process of discovery would surely
have brought about more clarity. This is not justice!!
Petitioners complaint asked that misconduct be
documented. not one Defendant denied their
violations, disturbingly they only said, “we can violate
your rights and both courts appeared to take
pleasure in affirming the Defendants pride. This is
contrary
to
the
constitutional
guidelines.
Furthermore, the Petitioner could not find any
support of the common law immunity for civil
damages in the U.S. Constitution.
. Petitioner is now pleading to Justice Breyer,
Justice Thomas, Justice Roberts. Justice Ginsburg,
Justice Alito. Justice Gorsuch, Justice Sotomayor ,
18

Justice Kagan, Justice Kavanaugh, and staff “must
it always take decades, even centuries for
questionable common laws and doctrines to be
remedied/ameliorated? Therefore, it is the supreme
authority of this court, that is required to establish
and balance the scales of justice.

19

Conclusion
Will what the colonies have become ever live up
to its promises at inception. Why have our trusted
officials continued to forsake us, is not the
government:
Of the people?
By the people?
For the people?
, My God America, look at the first three words
of our Constitution “We the people”, not we the
government!
Therefore, based upon the foregoing, the
Petition for Writ of Certiorari should be granted.
Respectfully apbrnittecL,

David Thorpe. Pro Se

'

4902 Fielding Way
Stone Mountain, GA 30088
404-428-8276

Date: January 14. 2020

20

